<html>
<title> - AIRPORT BAGGAGE SCREENING: MEETING GOALS AND ENSURING SAFETY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
AIRPORT BAGGAGE SCREENING: MEETING GOALS AND ENSURING SAFETY--ARE WE ON 
                                TARGET?
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 7, 2002

                               __________

                           Serial No. 107-134

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform




                   U.S. GOVERNMENT PRINTING OFFICE

82-668                     WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 7, 2002...................................     1
Statement of:
    DeCosta, Ben, general manager, Hartsfield International 
      Airport, Atlanta, GA.......................................     8
    Stefani, Alexis M., Assistant Inspector General for Auditing, 
      U.S. Department of Transportation; Stephen J. McHale, 
      Deputy UnderSecretary of Transportation for Management and 
      Policy; and Willie Williams, Federal Security Director, 
      Hartsfield International Airport...........................    36
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    DeCosta, Ben, general manager, Hartsfield International 
      Airport, Atlanta, GA, prepared statement of................    13
    McHale, Stephen J., Deputy UnderSecretary of Transportation 
      for Management and Policy, prepared statement of...........    61
    Stefani, Alexis M., Assistant Inspector General for Auditing, 
      U.S. Department of Transportation, prepared statement of...    39


AIRPORT BAGGAGE SCREENING: MEETING GOALS AND ENSURING SAFETY--ARE WE ON 
                                TARGET?

                              ----------                              


                       WEDNESDAY, AUGUST 7, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                  College Park, GA.
    The committee met, pursuant to notice, at 12:04 p.m., in 
the Council Chambers Room, College Park City Hall, 3667 Main 
Street, College Park, GA, Hon. Dan Burton (chairman of the 
committee) presiding.
    Present: Representatives Burton and Barr.
    Staff present: Kevin Long and Gil Macklin, professional 
staff members; and Robert A. Briggs, chief clerk.
    Mr. Burton. Good afternoon. A quorum being present, the 
Committee on Government Reform will come to order.
    I ask unanimous that all Members' and witnesses' written 
and opening statements be included in the record. Without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
tabular material referred to be included in the record. Without 
objection, so ordered.
    We have two panels today. Mr. DeCosta will be the first 
witness on the first panel. We want to try to keep the opening 
statements between 5 minutes--we will have a little latitude, 
up to 10 minutes, but if you could stick close to that, we 
would really appreciate it because we do have a lot of 
questions we would like to ask.
    First of all, I would like to thank my vice chairman, Bob 
Barr, for suggesting this timely and important meeting. Airport 
security is one of the most important issues that Congress is 
facing and that we have had to deal with in the last year. I 
cannot think of any place in America where airport security is 
a more pressing issue than here at the Nation's busiest 
airport, Atlanta Hartsfield International. And I want to tell 
you, when I got off the plane today, I have no doubt that this 
is the busiest airport in the country.
    I want to welcome our witnesses here today. We look forward 
to hearing your testimony. Today's hearing comes at a critical 
juncture in our national effort to improve aviation security 
and prevent future terrorist attacks. It is important to 
reassure the flying public that our airports, our planes and 
our aviation system are safe.
    Like my colleague, Mr. Barr, I fly at least twice a week 
almost every week. We know first hand the impact that September 
11th has had on our airports and on the travelers in 
particular. We know that some of the critical elements of 
developing a seamless transportation security system have not 
yet come together.
    This hearing is being held to address the looming deadline 
that we have before us for screening checked baggage. Before 
September 11th, we did not have a system for screening checked 
baggage for bombs. We had a vulnerability that we were not 
addressing. For more than a decade, I have advocated increasing 
our use of bomb sniffing dogs at airports and we had a 
difficult time getting that accomplished. But because we did 
not have a crisis, it was very hard to get people to pay 
attention. After September 11th, everything changed.
    Last fall, we passed the Aviation and Transportation 
Security Act. It set a deadline of December 31st this year to 
have explosive detecting machines up and running at every 
airport. This is an extremely tough deadline, these machines 
are very expensive. Construction will have to be done at the 
airports, people have to be trained, and we are hearing from 
more and more airports that this deadline simply cannot be met.
    The House realized that there would be problems meeting 
this deadline. I voted for that extension, not because airport 
security is not a priority, but because the job has to be done 
correctly. The Senate has not yet passed a similar extension.
    What exactly will happen if the Senate does not act as we 
did? It is my hope that our witnesses might be able to provide 
some insight into that. One thing is certain, the flying public 
should be reassured that aviation travel is still safe, even if 
the deadline is extended.
    I have been told that there are a number of screening 
machines already produced, but there has been little thought 
given to the challenge of installing the equipment, who is 
going to pay for it and even which airports or where in those 
airports we will be placing these SUV-sized machines. 
Obviously, there is a lot of work yet to be done and not much 
time left to do it.
    During the intense debate we had in Congress last fall, I 
supported having the Federal Government assume the passenger 
screening function with Federal standards, Federal supervision 
and Federal oversight. However, at the end of the day, we went 
even further than that. We required that all airport screeners 
become Federal employees. So we have given the administration 
two herculean tasks to be done at the same time--hire tens of 
thousands of Federal screeners and place thousands of bomb 
detection machines in every airport in the country and all in 
about 12 months. And I want to tell you, that is a big job.
    As many of my colleagues predicted, the TSA has been 
consumed with hiring an army of more than 30,000 Federal 
workers. Right now, only nine airports are Federalized and only 
about 4,500 persons have been hired at this date. I am told 
that the TSA is working feverishly toward meeting Congress' 
passenger screening mandate of November 19, 2002. But we must 
ask ourselves honestly what happens if this bureaucracy is not 
in place by then.
    It is now being estimated that as many as 67,000 Federal 
employees will be required and I understand 45,000 has been 
approved by the Congress and approved by the Office of 
Management and Budget. That includes 33,000 for passenger 
screening and 21,000 to run the explosive detection machines. 
I, for one, would like to know why those numbers have gone up 
so much.
    Finally, we must address these pending aviation security 
issues. Airports want answers. Airlines need answers and we owe 
the American traveling public answers. We cannot allow the 
prospect of 3 and 4 hour passenger waits for security risks and 
checks. We cannot further damage our aviation industry with the 
number of major air carriers on the brink of bankruptcy. We 
have a responsibility to deploy the most effective aviation and 
transportation security system possible, and because of the 
terrorist activity and the possibility of terrorist activity, 
we do not have any other choice.
    One thing is very important. We have got to have local 
input. We need to know how our decisions are affecting the 
people who are going to have to run our airports and that is 
why hearings like that are very important.
    That is why I am glad we have Mr. DeCosta, the manager of 
the Hartsfield International Airport here today--we appreciate 
you being here, sir. We need to know what we can do to help you 
do your job better. Can you meet the December 31, 2002 deadline 
or even December 31, 2003? That is the deadline that we passed 
in the House that has not yet been approved by the Senate. What 
happens if the Senate does not extend the deadline, as we have? 
And more importantly, what steps are being done right now--
taken right now to screen baggage.
    In closing, I would like to once again thank my committee 
vice chairman, Bob Barr, for inviting me down to his State and 
district to hold this important hearing.
    Mr. Barr, I understand you have an opening statement, we 
will recognize you right now.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 82668.001
    
    [GRAPHIC] [TIFF OMITTED] 82668.002
    
    Mr. Barr. Thank you very much, Mr. Chairman. Both 
personally and as vice chairman of this subcommittee, I 
appreciate very much your taking time during this district work 
period, in which your time and expertise is demanded, not only 
in your home district, but as chairman of this committee, in 
various locations around the country. We appreciate very much 
your taking some time from that very busy schedule to be with 
us here in Atlanta. I would like to welcome you to the Atlanta 
area, to Georgia, you are always welcome here to enjoy some 
Southern hospitality, Mr. Chairman.
    I would also like to extend a personal welcome to Ben 
DeCosta, who manages not only the world's busiest airport, but 
in many of our opinions, the best airport in the world. We know 
that is a constant challenge to juggle the sometimes competing 
demands of running the world's busiest airport, but in my 
experience, as Mr. Burton has said, somebody who frequents 
Hartsfield with far more frequency than a lot of our families 
would like, I really do appreciate the manner in which 
Hartsfield has been run and continues to be run, and the manner 
in which you are attempting to meet the very, very difficult 
challenges that have presented themselves by the aftermath of 
September 11th.
    Since the events of last September, the administration and 
Congress have worked together to mobilize the necessary funds, 
intelligence and personnel to track terrorists at home and 
abroad, and to strengthen the Nation's security infrastructure 
to meet and neutralize the threat that they pose.
    Many of the post-September 11th airline security issues 
were addressed in the Aviation Security legislation adopted 
several months ago. This important legislation targeted 
specific security concerns, including access to secure areas of 
airports; cargo security; use of explosives detection 
equipment; baggage screening; training to improve the 
performance of security screeners; and background 
investigations of airport and airline employees.
    The House has approve spending over $1 billion for the 
physical modification of commercial service airports, for the 
purpose of installing checked baggage explosive detection 
systems and other security upgrades.
    The luggage screening plan for Hartsfield calls for an in-
line system, with built-in enhanced and expanded baggage 
handling rooms throughout the airport. This design allows the 
Transportation Security Administration [TSA], to install and 
operate the explosive detection system without decreasing the 
public space available to passengers in the airport terminals. 
The project provides a permanent solution, integrated with 
airline and airport operations, and avoids any temporary or 
make-shift design or procedures, outstanding achieve 100 
percent checked luggage screening.
    This comprehensive security upgrade has proved to be a 
massive undertaking for our country's airports, including the 
Nation's busiest, Hartsfield International. Hartsfield, in 
particular, as a major hub in our Nation's domestic aviation 
system, will be greatly affected by the requirements of this 
Federal legislation. The most recent statistics show this 
airport served over 6.5 million passengers just through May of 
this year. Hartsfield officials are responsible for redesigning 
and constructing new security checkpoints, deploying 
sophisticated new equipment, and hiring and training scores of 
new employees--all while attempting to minimize the 
inconvenience to passengers.
    Today, we will hear from Hartsfield General Manager Ben 
DeCosta, who has estimated the TSA will need to hire 1,500 
people to screen baggage at the checkpoint and at the gates. He 
has well-founded concerns with the balance between deadlines, 
passenger delays and meeting the substantive requirements of 
the law.
    Mr. DeCosta is not the only aviation official who has 
communicated such concerns. Given the bill's aggressive 
timetable and deadlines, many airline officials have 
communicated similar concerns. In July, officials from 39 
airports across the country wrote Transportation Secretary 
Mineta, asking him to work with them to achieve a more 
reasonable deadline. The letter warned of ``harried 
installations'' of explosive detection machines in airports 
that have little space for new equipment.
    Moreover, the results of a recent survey conducted among 
airport executives by the American Association of Airport 
Executives, showed an overwhelming majority, some 78 percent, 
of the airport executives surveyed, believed the Congress 
should move back the December 31, 2002 deadline mandating all 
airports and airlines screen checked luggage for explosives; 
not to avoid meeting the substantive need for full screening of 
luggage, but to ensure a more realistic timetable within which 
to meet the those substantive requirements.
    Based on these concerns and the problems the Department of 
Transportation is expected to encounter in meeting that second 
deadline, the House approved an extension of the December 31, 
2002 deadline. H.R. 5005, the bill to establish the Department 
of Homeland Security, contains a provision to extend that 
deadline for screening all checked airline baggage for 
explosives.
    It is critical to note, however, this does not mean there 
will be gaps or threats to air travel safety. On the contrary, 
if the deadline extension is ultimately signed into law, 
airlines and airports will have a number of options to choose 
from in the interim. These options include using explosive-
detection machines, using bomb-sniffing dogs, increasing hand 
searches by security officers, and so-called bag matching, by 
which every bag is matched to an actual passenger on the plane. 
While airports work toward full deployment of explosive 
detection machines, the TSA has assured the flying public that 
other screening measures will serve during the interim, and 
wherever the machines are available, they will be used as close 
to full time as possible. This makes much more sense than 
spending hundreds of millions of dollars right now, only to 
discard such equipment in the near future, as the newer and 
better equipment is made available, and then have to spend all 
that money again a second time.
    In short, the deadline extension implies no vulnerability. 
We can and must work together to provide the means and 
capability for airports such as Hartsfield to meet the new 
security requirements. Deadline or no deadline, the safety of 
the flying public is our ultimate goal.
    I want to again thank Chairman Burton for calling this 
important hearing and for coming to Atlanta to chair this 
hearing personally. I also wish to thank General Manager Ben 
DeCosta for his continued leadership in this area. I look 
forward to hearing from all the witnesses on the progress made 
here at Hartsfield, on the outstanding demands, and what the 
Congress can do to assist airports in meeting aviation security 
needs.
    Mr. Burton. Thank you, Mr. Barr.
    Before we go to Mr. DeCosta, I would like to thank the 
mayor of College Park, GA, Mr. Longino, for being so hospitable 
by letting us use this chamber today. And I would also like to 
thank Gary Wade, who is the director of the Air Marshal Service 
for being so hospitable to us, we really appreciate your help, 
and your staff, Gary; thank you.
    With that, would you rise, Mr. DeCosta, to be sworn?
    [Witness sworn.]
    Mr. Burton. Do you have an opening statement, sir?
    Mr. DeCosta. Yes, I do.
    Mr. Burton. OK. Well, I told you before the meeting that we 
would like to stay close to 5 minutes, but I understand that 
you may take a little longer, so we will try to be 
understanding.
    Mr. DeCosta. Thank you very much.

     STATEMENT OF BEN DECOSTA, GENERAL MANAGER, HARTSFIELD 
               INTERNATIONAL AIRPORT, ATLANTA, GA

    Mr. DeCosta. I would like to thank Chairman Burton and 
Congressman Barr for hosting this hearing. This is an important 
national issue and we really appreciate your leadership on the 
issue.
    As the world's busiest airport, more than 75 million 
passengers annually pass through our gates. With economic 
impacts of $16.8 billion annually, we are also the largest 
single economic engine in the State of Georgia or the 
southeast. In short, Hartsfield is very important to America. 
We want to do everything we can to ensure the safety of our 
passengers and visitors and protect the viability of Hartsfield 
for the Nation.
    Thank you for inviting me to testify before you today to 
share our experience with enhanced security measures at 
Hartsfield. We also would like to share our views regarding the 
best approach for the Transportation Security Administration to 
meet the 100 percent bag screening requirements mandated by 
Congress.
    In this post-September 11th environment, it is essential 
that we do all we can to enhance security at our Nation's 
airports and to restore and maintain the confidence of the 
traveling public. Our economy depends on it.
    We have fully implemented all necessary security measures 
to further enhance our security program at Hartsfield. On 
September 11th, we increased our law enforcement support by 300 
percent, thanks to the tremendous support received from the 
city of Atlanta Police Department, Federal law enforcement 
agencies and other local municipalities. The Clayton County 
Police Department, for example, actively patrolled the outer 
perimeter of the airport during the initial stages of the 
recovery. The mutual aid received from these agencies allowed 
us to quickly resume operations. We also welcomed the 
deployment of the Georgia Sky Guards to assist in the 
monitoring of security screening operations. We were also 
pleased when Guardsmen were given authority to support our law 
enforcement officers in other areas of the airport such as the 
concourses.
    The airport community has responded also very positively to 
our increased security awareness through its involvement in our 
airport security consortium. Our consortium, under the 
leadership and direction of our Aviation Security Manager, Mr. 
Richard Duncan, who is here with me today, meets regularly to 
review security directives and assess their impact on airport 
operations. The consortium developed plans for revalidating 
security badges, searching incoming vehicles and reducing the 
number of access portals, while maintaining our ability to 
provide quality customer service to our passengers and to our 
employees. We have devoted a tremendous amount of resources to 
ensure the full implementation of the additional security 
requirements at Hartsfield.
    We believe that the Transportation Security Administration 
has also made tremendous strides toward improving security at 
airports across the Nation. In short order, they stood up a 
brand new agency, they moved out and made partners of airports 
and established these partnerships at many airports and others 
in the aviation industry to assess the status of security while 
planning a course to fully implement the provisions of the 
Aviation and Transportation Security Act. The organizing of a 
new Federal agency, the establishment of recommendations, early 
appointments of Federal security directors, the establishment 
of TSA go-teams and the passenger screening checkpoint redesign 
approach are all noteworthy accomplishments done in record time 
by the TSA. At Hartsfield, beginning in March of this year, we 
provided TSA consultants with the full support and cooperation 
of my employees and our consultants, to make sure that they 
would be successful or as successful as they could be in 
meeting the November deadline for passenger screening. They 
worked jointly with the TSA consultant team, Accenture, during 
the ongoing checkpoint redesign. That redesign is continuing 
and part of our checkpoint is actually undergoing 
reconstruction. So we have made some good progress.
    We believe that under the able leadership of our Federal 
Security Director Willie Williams, the Federalization of the 
passenger screening operation will be both effective and 
timely.
    The design for the passenger screening checkpoint 
reconfiguration is underway and we understand that the hiring 
of more than 1,400 TSA staff and supervisors is progressing. 
While we do not yet have a firm date for the implementation--
that is the Federalization of the security checkpoint--the TSA 
should meet the November 19th date for passenger screening at 
Hartsfield, we believe. We are still working out a few issues 
on the physical configuration and who pays for what, but we 
think we will be successful in working out those details on 
passenger screening.
    With the appointment of Admiral Loy, we hope to strengthen 
our partnership with the TSA as we forge ahead with the full 
implementation of the statute requirements.
    The implementation of 100 percent baggage screening 
requirement is, unfortunately, not going as well. We continue 
to cooperate with the TSA consultants, but with mixed results. 
The cooperation, the attitude, the partnership is right, but 
the approach is wrong. Rather than consider, in dialog with 
airport management and our consultants, the best approach to 
accomplish the baggage screening and enhanced security at 
Hartsfield, TSA consultants have come to town with a 
predetermined approach--the use of explosive trace detection 
systems placed in our ticketing lobbies, rather than the more 
effective x-ray type explosive detection systems [EDS], 
integrated into our airline baggage systems. We believe that 
the more effective approach at the world's busiest airport is 
to make the baggage screening part of the airline baggage 
system. However, TSA has pushed placing this function in 
constrained ticket lobbies, where they will undoubtedly lead to 
long lines and congestion.
    What is needed is a more flexible approach by TSA. That we 
think can only occur if Congress will provide the TSA and the 
U.S. Department of Transportation with the guidance and 
appropriate funding resources to accomplish this important 
goal--let us do it right the first time.
    The TSA has accelerated the planned implementation at 
Congress' direction, of course. For the most part, 
congressional deadlines have been very, very positive indeed. 
You have energized the government, the airports, the airlines 
to do a much better job and I think the results are becoming 
more and more apparent. Except for the baggage screening, the 
deadline tends to force us on an allegations path that leads us 
which, in our view, is the wrong direction.
    Section 110(d) of the Aviation and Transportation Security 
Act, enacted by the Congress and signed into law by the 
President on November 19th of last year, directed the Under 
Secretary of Transportation for Security to take all necessary 
actions to ensure that explosive detection systems are deployed 
as soon as possible to ensure that all U.S. airports have 
sufficient EDS to screen all checked baggage no later than 
December 31, 2002--a very short time indeed. All systems 
deployed are fully utilized. If EDS at an airport is 
unavailable, all checked baggage is screened by alternative 
means.
    So the Congress has given us a chance to use more than one 
approach and there is some flexibility. The alternative means 
include the bag match program, manual search, K9 units and 
other means or technology approved by the Under Secretary, 
which of course would include the trace detection.
    The safety and security of the traveling public should be 
the overriding factor during the implementation of this section 
of the act. We would propose to the TSA and its baggage 
screening consultants a solution that would enhance passenger 
safety and security while meeting the intent of the act. 
However, the TSA and its consultants will not discuss or 
consider our recommendations. They do not have time, they say.
    At Hartsfield, we have proposed that the TSA develop and 
implement with us an integrated and automated in-line EDS 
solution that would be transparent to the public. An integrated 
and automated EDS approach is the only workable solution to 
address our large baggage volumes at the busiest airport in the 
world, in our opinion.
    We are developing plans to implement an integrated 
explosive detection system for screening the bags. This system 
can be in place, we believe, our planners are telling us--we 
are working out schedules as we speak--we think we can do it in 
between 18 and 21 months at a cost of probably over $100 
million, maybe somewhere between $100 and $120. The numbers 
keep moving as we are refining the approach. While an in-line 
system has a higher initial capital cost, the long-term 
benefits are significant. An automated in-line system, for 
example: Requires one-sixth the number of employees to operate 
as compared to trace detection solution at Hartsfield. Does not 
add congestion to already constrained ticketing lobbies. 
Provides redundancy in the case of mechanical failure. Does not 
force passengers to wait in additional lines for security 
screening. And allows flexibility to easily incorporate new 
security technologies in the baggage handling system as they 
become available.
    We support H.R. 5005 and the provisions recommended by 
Congresswoman Granger in the Homeland Security Bill that 
extended the deadline for the EDS deployment to December 31, 
2003. Of course, from my testimony, you know that we would have 
difficulty having 100 percent deployment under our solution by 
that date, but certainly we could get a good head start on the 
right path rather than spending and wasting time on an interim 
solution which we think is not as effective.
    This provision in the Homeland Security Bill would allow 
the TSA to consider our recommended integrated EDS approach and 
would create a cost savings of about $25 million, or actually 
somewhat more if you consider the cost of the interim solution 
to TSA. You would not have to spend money on an interim 
facility, demolish part of the terminal, which you would have 
to replace, and you would end up saving the throw away cost on 
the interim solution which would probably be more than $30 
million.
    In addition, the interim solution requires heavy staffing. 
We estimate that you would need between 1,000 and 1,200 people 
in the interim approach, whereas less than 200 would be needed 
for the in-line integrated EDS system approach. With a fully 
loaded cost of between $45,000 and $50,000 per person, you can 
see that this additional staffing would cost the Federal 
Government a considerable sum.
    The TSA's interim plan calls for a combination of EDS and 
explosive trace detection equipment in our crowded lobbies to 
meet the deadline. This concept would result in higher 
screening personnel requirements. And I mentioned that if it is 
somewhere between 1,000 and 1,200, maybe you could do it 
perhaps with somewhat less, but the cost would exceed $40 
million a year at Hartsfield. And some analysts have estimated 
that it would be over $1 billion nationwide.
    Significant alterations to current check-in facilities and 
processes that have a direct impact on passenger 
responsibilities and their resulting travel experience would 
occur with this trace detection system.
    There also may be an increased requirement for explosive 
ordnance disposal response because of false positives that may 
result in the ticketing office. That is an operational issue 
that needs to be explored further with TSA.
    Additional and high density lines of passengers in and 
outside the terminal building, which could conceivably create a 
new target for terrorists.
    We believe TSA should explore alternative means such as bag 
match and emerging technology, to screen baggage while actively 
pursuing--let me repeat--actively pursuing an integrated system 
at the busiest of America's airports. Currently the required 
number of EDS machines is not available. The TSA has stated 
that it can increase production, however, we have not seen an 
increase in the deployment of these systems. Nationwide, TSA 
has deployed only about 6 percent of the total devices that are 
needed for airports and so you can press forward to meet the 
deadline but there are some challenges and difficulty in 
actually meeting it in terms of the availability of needed 
machines.
    In order for the TSA to meet its schedule, it must purchase 
and install EDS and ETD machines every 38 minutes between now 
and December 31st of this year.
    Let me skip over some of this, I know I am coming to the 
end of my 10 minutes.
    The Airport Alliance, consisting of 39 of the Nation's 
airports has gone on record to request an extension of the 2002 
deadline. Our intention is not to relax security, but to 
enhance security. We firmly believe that the interim measures 
to deploy the EDS equipment in lobbies and other spaces just to 
meet the deadline is not the right approach. In fact, this 
approach will create bottlenecks and safety hazards for our 
customers. Simply stated, we may be creating a more lucrative 
target for terrorists and other criminals.
    In closing, airports throughout the Nation are committed to 
protecting the safety and security of our passengers and we 
fully support the TSA in our goal of strengthening the security 
of aviation. But in the case of the 100 percent baggage 
screening approach, the TSA plans to implement a program at 
Hartsfield that will not give us the best security or 
acceptable levels of customer service. The TSA must revisit its 
solution for the world's busiest airport. An integrated and 
automated checked baggage screening system is the right 
solution for Hartsfield.
    We fear that harried efforts will compromise efforts to 
enhance security, frustrate our aims to increase capacity and 
slow the return of the industry to financial health. We should 
do the bag screening right the first time. We may not be able 
to afford to do it over again.
    Again, thank you very much for this opportunity to share 
our views with you.
    [The prepared statement of Mr. DeCosta follows:]
    [GRAPHIC] [TIFF OMITTED] 82668.003
    
    [GRAPHIC] [TIFF OMITTED] 82668.004
    
    [GRAPHIC] [TIFF OMITTED] 82668.005
    
    [GRAPHIC] [TIFF OMITTED] 82668.006
    
    [GRAPHIC] [TIFF OMITTED] 82668.007
    
    [GRAPHIC] [TIFF OMITTED] 82668.008
    
    [GRAPHIC] [TIFF OMITTED] 82668.009
    
    [GRAPHIC] [TIFF OMITTED] 82668.010
    
    [GRAPHIC] [TIFF OMITTED] 82668.011
    
    [GRAPHIC] [TIFF OMITTED] 82668.012
    
    [GRAPHIC] [TIFF OMITTED] 82668.013
    
    [GRAPHIC] [TIFF OMITTED] 82668.014
    
    [GRAPHIC] [TIFF OMITTED] 82668.015
    
    [GRAPHIC] [TIFF OMITTED] 82668.016
    
    [GRAPHIC] [TIFF OMITTED] 82668.017
    
    [GRAPHIC] [TIFF OMITTED] 82668.018
    
    Mr. Burton. Thank you, Mr. DeCosta. It's a little 
disturbing to me that you are having this kind of disagreement 
with the TSA people. Were they recalcitrant when they talked to 
you about your suggestions?
    Mr. DeCosta. I would not use the word recalcitrant, because 
they are highly professional people who are very smart and seem 
to know their business. But they have been given a clear and 
definite mission and that is to do 100 percent explosive 
detection screening by the end of this year and are not 
permitted, either by budget or by timeframe, to consider 
various other modes of getting the job done, like the in-line 
system.
    Mr. Burton. When you were talking about the in-line system, 
I am not sure I understood you correctly, but you said it would 
take one-sixth of the employees once it was on line; is that 
correct?
    Mr. DeCosta. If you have what we think would be roughly 26 
or 20 EDS machines installed in line in the baggage systems, 
not in the lobbies, but below the ticketing lobbies, you would 
run that entire process with less than 200 people. But if you 
use the current TSA approach of putting trace detection 
machines, of which there are over 160, in the ticketing 
lobbies, you would need a work force to cover the full 
operating day at Hartsfield of between 900 and 1,200 people.
    Mr. Burton. And----
    Mr. DeCosta. Of course, if you hired all of those people 
and then you got the preferred approach implemented in 2 years 
or less, then those people would have to be let go.
    Mr. Burton. So you would have duplicative costs and you 
would be wasting, what did you say, $30 million or----
    Mr. DeCosta. Yes.
    Mr. Burton. About $30 million?
    Mr. DeCosta. Or more, on the interim solution. Those would 
be sunk costs that would be of no use to you in 3 years after 
you got your other systems up and running.
    Mr. Burton. Well, when you discussed this with the TSA 
experts that came down, what did they say about that? Is it 
just because of the timeframe within which they have to work 
that they are very concerned about getting on with it or is 
it----
    Mr. DeCosta. I think they are very committed to meeting 
Congress' mandate of the deadline. The word has come down from 
Congress through Secretary Mineta to each and every person at 
TSA, that this deadline must be met. And so they are following 
the directions they are given.
    Mr. Burton. But the deadline could not be met if your 
approach was adopted by the end of this year.
    Mr. DeCosta. That is correct.
    Mr. Burton. So long-term, your approach is far superior, 
but in the short run, if we are going to protect the public as 
quickly as possible, we ought to take a look at what they are 
suggesting.
    Mr. DeCosta. Well, I think what we should do is have a 
combination of methods. You know, security of airports is much 
better than it was last September 11th, and so security across 
airports around the Nation will increase month by month as we 
go forward. There is nothing magical about the December 31, 
2002 date. What you should do is plan to increase security to 
its highest level and rather than take an interim, you know, 
step that will actually cost you more money and not deliver 
what is in our view the highest level of security.
    Mr. Burton. But you say there could be an amalgamation of 
the two approaches that would be effective within a relatively 
short period of time?
    Mr. DeCosta. I think so.
    Mr. Burton. What timeframe are you talking about?
    Mr. DeCosta. I think if you start immediately on trying to 
take care of your interim solution as the statute permits--the 
statute does permit some flexibility. You use your hand 
searches, your K9s and trace detection, but at the same time 
you work on the real solution, you do not wait.
    Mr. Burton. What I would like to have is a list of your 
recommendations and your recommendation on how these two could 
be integrated to give maximum security as quickly as possible 
and yet impose these cost savings you are talking about and 
still protect the flying public. So if you could get those to 
us, since our committee oversees the entire government, I will 
be very happy to make sure that Mr. Mineta and the people at 
TSA get those and we will ask questions as to why they do not 
see eye to eye with you in the approach and maybe we will get 
some compromise that might be more helpful to you. We have 
people from TSA here today of course and we are going to be 
asking them questions about your statement as well.
    With that, I see my time has expired. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. DeCosta, when you use the term in-line automated and 
integrated system, what exactly do you mean? And could you 
basically just sort of walk us through how such a system would 
work, just very briefly?
    Mr. DeCosta. You would have every bag that comes into the 
system go into the baggage system and go through a bank of 
somewhere between 10 and 13 CTX-9000 machines. Those machines, 
on an automated basis, can detect whether or not there is an 
explosive in the bag. And if the bag fails, then the bag comes 
off line and is searched.
    Now there are some false positives, and so the system is 
designed to take the bag and have it reviewed, the image 
reviewed, by an operator. That operator would either clear the 
bag based on their intelligence of how these machines work or 
then it goes into a second series of machines in which the 
machine would then review it by x-ray technology to determine 
whether that bag has in truth a bomb in it or whether it is a 
false positive.
    If the bag clears, it then is shipped back into the baggage 
system and ends up on an aircraft. If the bag fails, either 
because there is a bomb in it or there is a false positive, the 
bag is taken off line and searched.
    And so in this system, you can get most of the bags through 
the system in an automated system and some residue of bags 
would actually end up being searched by TSA officials to 
determine whether the bag is safe.
    Mr. Barr. Compare that walk-through with what TSA is 
proposing.
    Mr. DeCosta. They are proposing that when the passenger 
comes into the ticketing lobby carrying their bags, they will 
go to ticketing and then after ticketing, they will get in a 
second line and be shepherded to trace detection machines which 
are about this big [indicating], they could sit on this table. 
A TSA official would then swipe the bag on the outside or 
perhaps on the inside and it will pick up a fine residue of an 
explosive material, if there is one in the bag of the people 
who have handled the bag have handled this material. This 
cotton or paper swab would then be placed into this explosive 
trace detection machine, which would accept the vapor from the 
materials. It is warm, if it detects certain chemicals that you 
find in explosives, then it will alarm and you will know that 
you have a problem.
    Once that is done--and this takes a great deal more time, 
of course, than through an automated system, then the bag will 
have to be taken from that desk and then placed into the 
baggage system.
    The difference is in the accuracy of the approach and in 
the time it takes to handle large portions of bags. Our fear is 
that the trace detection methodology, if used wholesale, 
would--for 100 percent--would result in very long lines, 
especially if you were not able to staff all of the machines 
available at the ticketing counters. And one of our concerns is 
that of hiring this 1,000 people and keeping them on the job is 
not a foregone conclusion. If you do not have this part of the 
system which is labor intensive fully staffed, the lines will 
back up, fill up our ticketing lobbies and people will be in 
line out on the street.
    Mr. Barr. Is this the same technology that currently is 
available when you take your hand baggage through and there is 
a problem or they, for whatever reason--you do not have to go 
into the details of it here publicly--it is the same technology 
that is currently being used for suspicious hand bags.
    Mr. DeCosta. Yes. We do a sampling of baggage, hand bags, 
coming through and do the trace detection for explosives.
    Mr. Barr. For a hand baggage, I have kind of a general 
impression of how long it takes, but how long does it take on 
average for that process?
    Mr. DeCosta. Well, for carry-on bags, it is pretty quick, 
but for checked baggage, it would take I think considerably 
longer.
    Mr. Barr. Is that because of the size of the bags?
    Mr. DeCosta. Well, especially if you open the bag and you 
go through the inside of the bag with it. There are several 
approaches--a closed bag approach, an open bag approach. One 
takes more time than the other.
    Mr. Barr. And this would be done--orient us to Hartsfield 
right now, where would this be done, as you enter terminal A 
or--the north or south terminal?
    Mr. DeCosta. The north or south terminal, you would 
approach ticketing, handle your ticketing transaction and then 
move behind the ticketing counters--of course in your travel 
through Hartsfield, you know there is no space there now, there 
are offices behind those ticket counters. Those offices would 
have to be demolished and that space would then be used for----
    Mr. Barr. It is my impression even if you do that, you are 
still not going to have very much space.
    Mr. DeCosta. Probably not, especially if the throughput is 
slow, which we would expect.
    Mr. Burton. Let me just followup on Mr. Barr's questions. 
You indicated that they might have to open the bags to do that 
hand check with the explosive detection device. Do I deduct 
from that if the bag was closed, there could be a bomb inside 
that might not be detected if you did not open it up?
    Mr. DeCosta. I would rather not speculate on this technical 
area.
    Mr. Burton. OK, well, in a public forum, I can--OK, we will 
talk about that later, but the point is that is very 
disconcerting because if you have got thousands of bags going 
through and there is some question about the detection 
capability of that system without the bags being opened, my 
gosh, that would be like the Israeli system where they go 
through everybody's bag one at a time before an airline 
departure. I mean it would almost come down to that. So that is 
something that we really need to look into and I would like to 
talk to you about that problem probably privately in a closed 
session. But we would like to have you give us in writing some 
of the concerns you have that will be transmitted through our 
committee directly to Mr. Mineta and the Transportation people 
as well as TSA. But that raises a real question as far as I am 
concerned.
    Mr. Barr, if you have more questions, go ahead.
    Mr. Barr. Thank you, Mr. Chairman.
    What are the benefits in the approach that you have just 
outlined, the TSA is proposing? Are there any?
    Mr. DeCosta. Yes, there are. One of the benefits is that 
you can meet the deadline with it. For those people who feel 
that is a sufficient benefit.
    You could do this--you might be able to meet the deadline, 
let me put it that way, because there is a lot of work to be 
done between today and the end of the year to even implement 
that option.
    Mr. Barr. You say on page 13 of your testimony that TSA has 
deployed only 6 percent of the total devices they will need at 
airports. Why is that figure so low?
    Mr. DeCosta. The manufacturers are trying to build as many 
machines as they can as fast as they can and it is far from 
certain that the manufacturing capacity is there, and then once 
you have the machine, you also have to find a place to put it. 
As you know, these are very large machines and you have to try 
to wedge them into existing facilities, if you do not build out 
those facilities. Building them out will not be done by the end 
of the year, and so if you use the current EDS machines in 
combination with trace, you will have to wedge these machines 
into the present terminal.
    Mr. Barr. Is there a demonstrably high false positive rate 
for the current machines?
    Mr. DeCosta. The current EDS machines, we have heard by 
some researchers and commentators, have a high false positive 
rate of between 20 and 30 percent.
    Mr. Barr. How much?
    Mr. DeCosta. Between 20 and 30 percent. I think my 
testimony has the 30 percent number. That is what has been 
reported in recent studies by the Reason Foundation. But you 
could ask the TSA what has been their experience on false 
positives.
    But the system that the TSA and the airports are putting 
together will take into account the false positive 
characteristic of the machine, to make sure that at the end of 
the system, that we are sure that we can protect the public 
against explosives getting on aircraft.
    Mr. Burton. If I might followup with a couple of questions.
    Mr. Barr. Sure.
    Mr. Burton. The cost of buying the machines is going to be 
borne by the Federal Government. The installation, as I 
understand it, is going to be borne by the local airport 
authority.
    Mr. DeCosta. We hope not.
    Mr. Burton. Well, I know, but----
    Mr. DeCosta. That is still an open question. We believe 
that----
    Mr. Burton. Just give me a rough idea what it would cost to 
install a machine or all the machines that you would require 
here at Hartsfield.
    Mr. DeCosta. For an in-line system, our estimate is between 
$100 million and $120 million.
    Mr. Burton. To install them.
    Mr. DeCosta. Well, that's an all in cost that includes both 
the cost of the machines and the installation.
    Mr. Burton. Well, the machines themselves, as I understand 
it--we are talking about cost of installation.
    Mr. DeCosta. Just bear with me 1 second. And these numbers 
are spongy because we are in the planning phase, considering 
various----
    Mr. Burton. While he is looking that up, let me ask you a 
couple of other questions. You have a couple of machines here 
at Hartsfield now?
    Mr. DeCosta. Yes, we have an Envisions machine in the south 
terminal in the baggage system and a CTX-5000 out on Concourse 
E which is the international facility.
    Mr. Burton. OK. Now it was brought to our attention that 
those in the past have not been utilized fully, some up to 10 
percent, 20 percent, maybe 30 percent. Can you tell us what 
percentage of utilization is----
    Mr. DeCosta. The best information I have for you right now 
is that they are used on all selectee bags.
    Mr. Burton. On all what?
    Mr. DeCosta. There is a certain percentage of passengers 
who the computers will select for a more in-depth survey.
    Mr. Burton. It is random selection?
    Mr. DeCosta. Well, it is not just random, it is also a 
computer algorithm that tries to assess the risk of a person 
being somewhat of a threat.
    Mr. Burton. A profiling of some kind?
    Mr. DeCosta. I hesitate to use the word, but yes, there is 
a computer approach to determining what people are more likely 
to be a risk rather than less likely and those people are 
selected in conjunction with the random selections. So you have 
both a random selection and those people who meet a certain 
profile, like how you buy your ticket, for example, which would 
spit you out and then your bag is searched in some parts of the 
airport or goes through one of these computer operated x-ray 
machines. And so this Envision machine is used for all 
selectees.
    And then out on Concourse E, the CTX-5000, that is also 
used in a like manner.
    Mr. Burton. But you don't know the percentage of 
utilization at this time?
    Mr. DeCosta. No, I do not know exactly what the utilization 
is.
    Mr. Burton. It would seem that you would probably be using 
them almost 100 percent of the time, because you have so much 
baggage and so many people coming through this airport.
    Mr. DeCosta. Well, if we have some time later, we can go 
down and take a look at it.
    Mr. Burton. I think Congressman Barr and I would both like 
to do that.
    Do you have any more questions right now, Bob?
    Mr. Barr. Just a couple here.
    It is my understanding, Mr. DeCosta, that TSA's contractor, 
which I believe is Boeing, is supposed to complete site 
assessments at all major airports by the end of this month to 
determine exactly how many machines are needed. Has the site 
assessment for Hartsfield been completed?
    Mr. DeCosta. We are in the final stages of the assessment. 
The TSA used Ratheon to do the first series of assessments and 
recommendations. Once the contract with Boeing was finalized, 
then Boeing fielded a team and we have worked very 
cooperatively with them so they understand how the airport 
works, what the operations are like and we understand that they 
have a recommendation to TSA and we are hopeful soon to know 
more precisely what their recommendation is and then give us an 
opportunity to respond to it. I believe that another site 
survey team is due at Hartsfield this week--tomorrow.
    Mr. Barr. And do you anticipate that it will be completed 
by the end of the month?
    Mr. DeCosta. Yes, certainly.
    Mr. Barr. Is one of the benefits to the approach that TSA 
seems to be taking that if there is a problem with the bag, you 
are assured of having the person whose bag it is right there 
with the bag at the time the problem is identified?
    Mr. DeCosta. Yeah, I guess that would be a benefit of that, 
although you can work out procedures to make sure that if there 
is a problem, that a person is available even if you are not in 
the ticketing lobbies.
    In answer to your question on the cost, the terminal 
modifications would cost over $80 million.
    Mr. Burton. $80 million in installation?
    Mr. DeCosta. Yes, we would have to modify the terminal and 
the north parking deck.
    Mr. Burton. Now you are talking--if the gentleman would 
yield--you are talking about if they do the in lobby----
    Mr. DeCosta. No, in-line system.
    Mr. Burton. The in-line system itself that you are 
advocating, would cost $80 million.
    Mr. DeCosta. Would cost over $80 million. And the balance 
of the 120 that I mentioned is the cost of the equipment, which 
is clearly a TSA cost and the over $80 million that is 
uncertain as to who bears that cost.
    Mr. Burton. What is the cost of the equipment itself?
    Mr. DeCosta. $38 million.
    Mr. Burton. So you are saying that two thirds of the cost 
is going to be borne by the local airport authority unless 
something is worked out with the Transportation----
    Mr. DeCosta. Well, our position is that this is a national 
defense issue and it should not be borne by the airports.
    Mr. Burton. I understand. We will talk to TSA about that a 
little bit.
    Let me just ask one more question and I will yield back to 
Mr. Barr. It sounds like your relationship with the TSA and 
their contractors has been kind of good and bad.
    Mr. DeCosta. I would say it has been professional with a 
good attitude for the most part, and I----
    Mr. Burton. But you have disagreements.
    Mr. DeCosta. Yeah, the major disagreement is on the 
approach taken and the approach is being taken because of their 
commitment to the deadline.
    Mr. Burton. But you indicated in your statement earlier I 
think that they--when you told them that you thought there was 
a better way to skin the cat, they were very adamant that their 
way was the way it was going to be done.
    Mr. DeCosta. That is correct.
    Mr. Burton. So there was no resiliency there.
    Mr. DeCosta. There was no dialog on this other approach 
because they are committed to a predetermined approach.
    Mr. Burton. OK. Well, what I would like to have, and I 
think Mr. Barr would like to have, is your recommendations that 
we can present to them and find out the reasons why they feel 
so strongly that their position should not be changed. So if 
you could get that to us, we will ask questions of Mr. Mineta 
and the TSA about that.
    And also I have some other questions for the record that we 
probably will not be able to get into today, we would like to 
get those to you and if you would answer those, we would 
appreciate it.
    Mr. DeCosta. Certainly.
    Mr. Burton. Mr. Barr.
    Mr. Barr. I do also, Mr. Chairman, and we will certainly 
coordinate those with you and have those submitted to Mr. 
DeCosta.
    I very much appreciate your testimony today and, of course, 
your continued service at Hartsfield. And hope that we can work 
this out, because I agree with you that we do not need to rush 
into something here, we do need to get it right the first time. 
If it takes a little bit more time in order to do that, so long 
as, as you have assured us, there are measures that will 
continue to be in place to protect the traveling public in the 
meantime, that certainly does seem to make a lot of sense.
    Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. DeCosta, we really appreciate 
your hospitality and your candidness, and we appreciate your 
staff as well, and we will look forward to taking a little tour 
of the airport and seeing what you do after we conclude the 
meeting.
    Mr. DeCosta. OK, thank you very much.
    Mr. Burton. We will now hear from our second panel, Mr. 
Stephen J. McHale, the Deputy Undersecretary of Transportation 
for Management and Policy and Alexis Stefani. And we also, I 
understand, will add to that panel, Mr. Willie Williams, who I 
guess was a former police chief in Los Angeles--I saw you on 
television, good looking fellow--and you are now the Federal 
Security Director, is that correct?
    Mr. Williams. Yes, sir.
    Mr. Burton. Would you please stand to be sworn?
    [Witnesses sworn.]
    Mr. Burton. I think we will start with Ms. Stefani.
    We will start with you. Do you have an opening comment you 
would like to make, or statement?

 STATEMENTS OF ALEXIS M. STEFANI, ASSISTANT INSPECTOR GENERAL 
  FOR AUDITING, U.S. DEPARTMENT OF TRANSPORTATION; STEPHEN J. 
MCHALE, DEPUTY UNDERSECRETARY OF TRANSPORTATION FOR MANAGEMENT 
  AND POLICY; AND WILLIE WILLIAMS, FEDERAL SECURITY DIRECTOR, 
                HARTSFIELD INTERNATIONAL AIRPORT

    Ms. Stefani. Yes, I do.
    Mr. Chairman, Congressman Barr, I appreciate the 
opportunity to testify before you today concerning the progress 
the Transportation Security Administration is making in 
implementing the Aviation and Transportation Security Act.
    We all recognize that ensuring our transportation systems 
are secure is a tremendous task, one that has never been 
undertaken before on a scale of this magnitude. TSA is making 
progress--for example, it has awarded three major contracts for 
hiring and training all the passenger screeners and for 
deploying and installing the explosives detection equipment at 
over 400 airports nationwide.
    However, the heavy lifting lies ahead. Today, the deadline 
to have a Federalized screener work force in place is just over 
3 months away, while the deadline to begin screening 100 
percent of all checked bags is less than 5 months away. While 
there has been much debate as to whether these dates are 
achievable, we can attest that TSA and the Department are 
working diligently to meet these deadlines and could not be 
working any harder. As we get closer to the deadlines with only 
a fraction of the airports completed, the task ahead becomes 
more formidable.
    It will become clear, in our opinion, in the next 30 days 
as to what exactly must be done, airport-by-airport, to meet 
the deadlines. And this is based on two key factors. Site 
assessments are really the driving force behind determining 
what equipment mix of the explosives detection equipment must 
be put in each airport, and as a result will also then 
determine the number of staff you need for both the EDS and the 
trace equipment. Once these assessments are done in August at 
approximately 260 airports nationwide, we will have much better 
data.
    TSA is also moving ahead and hiring up for the passenger 
screeners. Consequently, in our opinion, we will be in a much 
better position by the end of August to judge what is or is not 
feasible by the deadlines.
    I would like to provide you with some specific information 
on where TSA stands on meeting the two main deadlines. First, 
on hiring and training the passenger screeners. As of July 
31st, nine airports are currently operating with a full, 
complete Federal screener work force. During July, the TSA 
contractor was at over 200 airports with 100 teams to determine 
if the passenger screener checkpoints needed to be reconfigured 
and to determine the amount of staff that would be needed at 
each of the checkpoints. Over the last month, we can say the 
pace of hiring has increased and is accelerating. TSA has 
almost tripled the number of screeners on the payroll, to about 
4,400 with another 6,800 individuals who have accepted 
employment with TSA. At the end of July, TSA was accepting 
applications for 415 airports and had opened assessment centers 
for 119 airports. This compares to only three airports under 
the assessment process in mid-June.
    However, TSA estimates that it will need, in total, up to 
33,000 passenger screeners. With just over 3 months left before 
the deadline, this means that TSA needs to hire and train 
approximately 8,000 passenger screeners per month. While TSA 
has made adjustments in its hiring process to respond to past 
events, we are concerned about its difficulties in hiring 
screeners in major metropolitan areas, your large cities. For 
example, TSA estimates it will need about 2,300 passenger 
screeners for the airports near New York City. Since June, 774 
individuals have accepted offers for employment, or about 33 
percent of the targeted amount.
    These delays in hiring in the large cities have been 
largely due to no shows. That is, individuals who have applied 
for a position but do not show up at the assessment centers. 
That accounts for about 25 to 35 percent. Of those that do 
show, approximately 50 to 60 percent fail the aptitude test at 
the centers.
    I would like to move now to the screening of the checked 
bags. This challenging deadline for TSA, to screen 100 percent 
of the checked bags, is unprecedented. An effort of this 
magnitude has never been done in any single country or group of 
countries. In fact, the amount of explosives detection 
equipment necessary to screen all checked bags, or 
approximately 7,000 units, is estimated to be at least three 
times the amount deployed at airports worldwide.
    To be successful in this effort, TSA must effectively 
manage three concurrent activities. First, it needs to place 
the orders for the remaining equipment of 75 EDS and 4,500 
trace units. Because of manufacturer long lead times, all 
orders must be placed by the end of September if the equipment 
is to be delivered and installed by the year's end. Then the 
manufacturers must meet their delivery schedules.
    Second, TSA must ensure it meets all the milestones on the 
deployment. As Mr. DeCosta spoke, they are currently in the 
first phase of a six phase process looking at what equipment 
mix will have to be done at each airport. Site assessments have 
been started at 202 airports. Of these, 45 were completed by 
July 26.
    The next 30 days, as I said before, will tell what can or 
cannot be accomplished by the deadline.
    After site assessments, stages of design, construction and 
actual installation of the equipment must occur. For TSA, this 
will stretch out over the remainder of the year with 43 of the 
largest airports, including Atlanta, DFW and San Francisco, 
scheduled to be completed by the last week in December. 
Schedule creep in any one of these phases will, of course, 
ultimately affect the December deadline and TSA's ability to 
meet it.
    Third, a checked baggage screener work force of 21,600 must 
be hired and trained by December 31st. This is in addition to 
the 33,000 passenger screeners. As of July 16th, TSA had only 
200 of these baggage screeners hired and deployed.
    Finally, I would like to discuss the usage of the EDS 
equipment already in place. For many years, we have talked 
about this and have requested that the use of these machines be 
increased. Today, as of May of this year, the latest data we 
have available, over 82 percent of the machines that are in 
use, are, on average, screening 750 bags per day or less. In 
our estimate, these machines can easily do 1,250 bags per day. 
In our opinion, TSA needs to direct that the current rate of 
machine usage pick up substantially or we are going to miss out 
on a great opportunity to get more practice, to learn more 
about how these machines operate in the airport environment, 
and to provide increased security.
    Mr. Chairman, my statement also had information on cost 
controls. To save time, I will be glad to answer any questions, 
but I will not talk about that right now.
    That concludes my statement. Thank you.
    Mr. Burton. You have created a lot of questions, Ms. 
Stefani.
    Secretary McHale.
    [The prepared statement of Ms. Stefani follows:]
    [GRAPHIC] [TIFF OMITTED] 82668.019
    
    [GRAPHIC] [TIFF OMITTED] 82668.020
    
    [GRAPHIC] [TIFF OMITTED] 82668.021
    
    [GRAPHIC] [TIFF OMITTED] 82668.022
    
    [GRAPHIC] [TIFF OMITTED] 82668.023
    
    [GRAPHIC] [TIFF OMITTED] 82668.024
    
    [GRAPHIC] [TIFF OMITTED] 82668.025
    
    [GRAPHIC] [TIFF OMITTED] 82668.026
    
    [GRAPHIC] [TIFF OMITTED] 82668.027
    
    [GRAPHIC] [TIFF OMITTED] 82668.028
    
    [GRAPHIC] [TIFF OMITTED] 82668.029
    
    [GRAPHIC] [TIFF OMITTED] 82668.030
    
    [GRAPHIC] [TIFF OMITTED] 82668.031
    
    [GRAPHIC] [TIFF OMITTED] 82668.032
    
    [GRAPHIC] [TIFF OMITTED] 82668.033
    
    [GRAPHIC] [TIFF OMITTED] 82668.034
    
    [GRAPHIC] [TIFF OMITTED] 82668.035
    
    [GRAPHIC] [TIFF OMITTED] 82668.036
    
    [GRAPHIC] [TIFF OMITTED] 82668.037
    
    Mr. McHale. Thank you, Mr. Chairman. Good afternoon, 
Chairman Burton and Vice Chairman Barr. I am pleased to 
represent Admiral James Loy, the Acting Under Secretary of 
Transportation for Security.
    With me this afternoon is, as you have acknowledged, Willie 
Williams, the Federal Security Director of the Hartsfield 
Atlanta International Airport. He is our leading representative 
at the airport and is in charge of all the Federal security 
responsibilities at Hartsfield.
    Mr. Williams has 30 plus years of service in law 
enforcement, he was Police Commissioner of Philadelphia and 
Police Chief of Los Angeles and he brings a wealth of 
excellence, talent and commitment to this important position.
    Also, as you have acknowledged, with me today is Mr. Gary 
Wade of the Federal Air Marshal Service, who also has many, 
many years of law enforcement experience and brings that talent 
to our greatly expanded air marshal service.
    I would also like to mention that TSA has selected Mr. 
Quinton Johnson to be the FSD responsible for the Valdosta 
Municipal Airport and the Southwest Georgia Regional Airport. 
The TSA is currently in the process of selecting an FSD for 
Savannah.
    Since September 11th, the Department of Transportation and 
TSA have worked intensely to tighten security throughout the 
aviation system. These efforts include enhanced screening 
measures, hardening of cockpit doors, greatly increased 
deployment of Federal air marshals and more intelligent use of 
technology. They have dramatically increased aviation security 
for all passengers.
    In addition to recognizing the hard work and perseverance 
of hundreds of employees of the FAA and TSA, we owe a debt of 
gratitude to the thousands of airport security workers, law 
enforcement officers, National Guard personnel and hundreds of 
thousands of aviation industry employees who have contributed 
so much to our efforts to increase security. Perhaps most 
importantly, we are especially grateful to the millions of 
travelers who continue to exercise great patience with the 
enhanced security measures.
    The Aviation and Transportation Security Act requires that 
all passengers be screened by Federal employees by November 19, 
2002 and that checked baggage be screened by explosive 
detection equipment by December 31, 2002. This is an immense 
challenge for TSA and for the Nation's airports and airlines. 
From the beginning, TSA has been committed to meeting these 
deadlines and all of the other mandates of the act. We 
developed plans for doing so and continue to move forward 
aggressively.
    I am going to give you a few of our accomplishments and you 
will hear the numbers that will be slightly different, slightly 
higher perhaps, than Ms. Stefani just mentioned, partly because 
I think my numbers are a few days sooner, and given the 
implementation at TSA, every day adds a bit more 
accomplishments, we bring on a few more people, we do a few 
more things.
    We have met every deadline imposed by Congress in the ATSA 
to date. The biggest one for us initially was taking over the 
responsibility for civil aviation security from the airlines on 
February 17. At that time, TSA as an agency was really only 
about 40 days old, and yet we were able to enter into contracts 
with all of the contract screening companies to replace the 
airlines in that responsibility that they had been exercising 
for many years.
    In the southeast region and particularly here, that task 
was accomplished by the FAA personnel and civil aviation 
security, who have come over now to TSA, headed by Jackson 
Smith, who is the regional director for aviation security here 
and has been up until this point. Now, we are migrating over to 
the full TSA structure.
    We have appointed 118 Federal security directors who are 
responsible for security at over 300 airports around the 
country and should complete the appointment of all the 
remaining Federal security directors by the end of this month.
    We have implemented a rigorous training program for Federal 
security directors--screeners that has more than tripled the 
length of the one used before September 11th.
    We have begun recruiting at all the Nation's airports and 
we have held 37 job fairs and our staffing contractor, MCS 
Pearson, is operating 55 regional assessment centers.
    Over 600,000 people have applied for jobs as screeners and 
we have hired a little over 10,000 of them, about one-third of 
the number we need to reach the November 19th deadline.
    Federal passenger screeners are now working at 19 airports 
and they began working at Athens, GA just last week.
    One hundred percent of all checked bags are being screened 
with explosive detection equipment at four airports. We have 
orders pending for over 1,000 EDS machines--that is the large 
explosive detection system machines--and 119 of those have been 
delivered so far.
    We have also received about 200 trace detection machines 
and have orders in place for in excess of 4,000.
    Interim and final plans for the deployment of baggage 
screening systems are being developed. Boeing, our explosive 
detection contractor, is working at more than 220 airports, 
including all of the major airports. We have received a number 
of designs and should have the remainder in about 4 weeks.
    And this is only a partial list of our accomplishments for 
an agency that did not even exist at the beginning of this 
year.
    Here in Atlanta, we have recruited about half of the 
approximately 1,200 passenger screeners that we believe we will 
need. We expect to begin deployment of those passenger 
screeners toward the end of this month, possibly into 
September. Obviously we need to work around the Labor Day 
weekend, we do not want to be doing a major turnover that 
weekend, but we will work around that.
    The assistance we have received from the airport, 
especially from Mr. DeCosta, has been superb and we agree that 
Atlanta poses unique problems for explosive detection 
deployment. But we will continue to work with the airport over 
the next weeks and months and years to get this system right.
    No one expected it to be easy to implement the Aviation and 
Transportation Security Act and it has not been easy. But 
Secretary Mineta, Admiral Loy and all of us at TSA remain 
strongly committed to the mission.
    Unfortunately, the recently enacted emergency supplemental 
appropriation is below the amount the President requested. 
Accordingly, we are now undertaking a fundamental re-evaluation 
of all our business plans to fit within the budget that 
Congress has given us. Our preliminary evaluation suggests that 
we will be able to meet the November deadline for passenger 
screening. However, we are looking at whether we will have 
enough money to meet the baggage screening mandate in the 
timeframe set by Congress. As we complete that evaluation, as 
we look at exactly how we will proceed, we will keep you, Mr. 
Chairman, and the Committee informed, as well as the 
Appropriations Committee and the T&I Committee.
    In the 261 days since President Bush signed the Aviation 
and Transportation Security Act into law, we have accomplished 
a great deal. In the 146 days between now and December 31st, we 
have a lot more to accomplish and TSA employees around the 
country are dedicated to the task. With your support, we can 
deliver on the promise made last year in the ATSA.
    Mr. Williams and I look forward to answering any questions 
that you or other Members may have.
    [The prepared statement of Mr. McHale follows:]
    [GRAPHIC] [TIFF OMITTED] 82668.038
    
    [GRAPHIC] [TIFF OMITTED] 82668.039
    
    [GRAPHIC] [TIFF OMITTED] 82668.040
    
    Mr. Burton. Thank you, Mr. Secretary. Mr. Williams, do you 
have any comments you would like to make?
    Mr. Williams. Not at this time, Mr. Chairman.
    Mr. Burton. Very good.
    It was a little disturbing to me, Mr. Secretary, that even 
though he couched his concerns in diplomatic terms, that the 
administrator of the airport here said that there was a 
recalcitrance on the part of the TSA officials that came down 
as far as working with him to solve the problem in not only the 
most expeditious way, but also in the most cost effective way.
    Can you explain that to me?
    Mr. McHale. Well, I will let Mr. Williams in a moment just 
talk about the relationship that we have had with Mr. DeCosta 
and his staff, which I think has been excellent, as well as our 
contractors.
    Mr. Burton. Excuse me just 1 second. I know it has been 
excellent and I know that you are gentlemen and you do not hit 
each other and that sort of thing. But it sounds like to me 
there is a real difference of opinion in how to protect 
Hartsfield from the people who came down to Washington and made 
recommendations. And I would like to know why and is there room 
for compromise or is it, as he said, pretty much set in stone?
    Mr. McHale. Talking and listening to Mr. DeCosta and also, 
from what I know of our approach nationwide as well, I think 
the issue here is not one of disagreement or unwillingness to 
talk about a variety of solutions. What we are driving toward 
and what our mandate is at this point is to come up with a 
plan, a system, for 100 percent explosive detection using 
explosive detection equipment by the end of this year. Mr. 
DeCosta's proposal, as he outlined it here, is one that would 
take well beyond that deadline to complete.
    We are committed--this is a long-term commitment for us 
obviously, this is a long-term program to ensure permanent 
improved security at airports. December 31st is a deadline that 
was in the act that we are trying to meet, we are committed to 
try to meet it. We have proposals to meet it.
    But the equipment that is out there today, the systems that 
are in place today, are--will improve over the years to come as 
we apply good American ingenuity. I think what we are going to 
be looking to is how do we continually upgrade these systems 
and move toward more automatic or integrated systems.
    One of the places where we do disagree with a number of 
people from the aviation industry is whether the technology 
that is available today is at a state where it is really going 
to be as effective and automatic within an in-line solution as 
we would like it to be. The EDS equipment, these large machines 
today, require us, when they alarm--and they alarm quite 
frequently--to actually remove the bag from that machine and 
then take it over and do a trace detection on the bag, take it 
to the second type of technology and do that trace detection. 
It is not really an automatic process, and given the type of 
false alarm rate we are hitting today, we do not have a high 
degree of confidence that the systems will work fully in line.
    Mr. Burton. What percentage of false alarms do you have?
    Mr. McHale. It is coming up in the range that Mr. DeCosta 
said, it is over the 20 percent range, which we have to 
resolve.
    Mr. Burton. So 20 percent of the bags that would go through 
the system, on the on-line system, would have to be taken off 
and rechecked.
    Mr. McHale. Right. So one of the things we look at then 
inputting in an in-line system is how can we do that. If we are 
going to take--there are some airports where we are looking at 
in-line solutions today, but they are ones where the costs are 
not as high as they might be at an airport like Hartsfield. We 
are trying to work with airports that are already doing 
construction work, such as Jacksonville, which is building a 
whole new terminal and baggage handling system, to try to work 
with them as they build that new terminal out to work to do the 
in-line EDS systems and pave the way for maybe improvements in 
the system that may be a year, 2 years, 3 years away. We do not 
see a great improvement coming down the line any time soon, but 
we need to be thinking ahead 2, 3, 4 years out, as the 
technology improves.
    Mr. Burton. Let me ask one more question. Ms. Stefani said 
that--and this is my math, so I might be off just a little 
bit--that about 60 percent of the machine time is being 
utilized, which means that about 40 percent is not being 
utilized. Why is that? You were talking about on-line machines, 
were you not?
    Ms. Stefani. I was talking about the ones currently in all 
the lobbies.
    Mr. Burton. OK.
    Mr. McHale. The machines are used today, they are operated 
primarily by the contractor personnel. We are taking over these 
machines, we have--as we are going to take them over, as we are 
going to deploy the Federal screeners, we expect to be able to 
use them close to 100 percent of the time. Ms. Stefani and I 
have discussed the fact that we need to continue to try to 
drive toward a greater utilization.
    Mr. Burton. So it is because of the personnel changes that 
are going to be required?
    Mr. McHale. And the layouts of where the machines are. They 
were not originally put in to really do the 100 percent baggage 
checks, so they have to--we have to reconfigure things and 
things like that. But we can use them more than we are using 
them today and we will continue to work toward that.
    Mr. Burton. One last comment that I will make and then I 
will yield to Mr. Barr and then I might have some more 
questions. It seems to me that in airports, especially like 
Hartsfield here, where the manager, Mr. DeCosta, is conversant 
with all the problems and he is talking about you are going to 
have to tear out walls, you are going to have to spend $30, 
$40, $50 million to reconfigure the airport, all that sort of 
thing, it just seems to me that there ought to be--I understand 
that you have a plan and you want to stick to your plan and you 
have to not deviate, but it seems to me that there ought to be 
at least some open-mindedness to the needs of the local airport 
authority in dealing with the problem. And I do not like to use 
the word recalcitrant because it sounds like you do have a 
fairly good working relationship with the airport authority, 
but it seems to me that there ought to be a little more 
openness and a little more understanding of the problems they 
face.
    With that, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    About a week and a half ago, the House passed the 
President's Department of Homeland Security Bill and while many 
Members may have had some specific concerns about one thing or 
another and certainly we exercised our prerogative and made 
some fine-tuning to it, the general feeling in the Congress was 
that the President, as essentially the CEO and the person 
tasked with the responsibility of implementing the mandate of 
the Congress reflecting the will of the people, ought to have 
the type of framework that he, as the CEO, believes would best 
accomplish the task before him. Do you think that's a good 
approach to take, a good perspective?
    Mr. McHale. Yes.
    Mr. Barr. Why would that not apply then to Mr. DeCosta and 
the heads of major airports, as the CEOs, if they come to you 
and say we believe as the CEOs and the persons actually 
responsible for carrying out and implementing in an appropriate 
way the mandates of the Congress, why would you not grant them 
the same deference that we believe is appropriate to grant the 
President, at a higher level?
    Mr. McHale. Congressman, we actually believe we granted a 
lot of deference and try to work very closely in partnership 
with the airports as we develop these plans. Again, the 
disagreement between Hartsfield and TSA is over really the 
timing of when we are going to be able to deploy explosive 
detection equipment to check 100 percent of the bags. I think 
Mr. DeCosta agreed that his plan does not come close to meeting 
the deadline that we are currently operating under. And really 
the only disagreement here is that we have a plan that we are 
talking to him about, how to implement it, but our plan is 
designed to meet the statutory deadline. There is not really a 
disagreement, in my view, over the actual implementation of a 
plan to meet the statutory deadline in that sense.
    Mr. Barr. What is the goal? Is the goal to meet a deadline 
or is the goal to implement the very best plan over the long-
term to protect the traveling public in a way that is the most 
cost effective at the same time?
    Mr. McHale. I think the goal is a bit of a combination of 
both. On the one hand, we believe, as I think the Congress 
does, that we should have explosive detection equipment out 
there as soon as we can, because of the level of threat against 
the United States, the kinds of threats that we face. We have 
designed a plan that will meet that deadline, try to provide 
that equipment by the end of the year, as the Congress 
suggested, an appropriate deadline in light of the threat. But 
that is only a marker on the way. I think we have to 
continually----
    Mr. Barr. So you are not saying that the very best system 
will be the one that might get in place by December 31st.
    Mr. McHale. That is correct. We should continue to study 
it, continue to improve it, continue to replace it.
    Mr. Barr. But if in fact substantial costs are incurred in 
meeting that deadline, that then would have to be incurred all 
over again, and as a matter of fact might over the long term 
even be more expensive because then you would have to sort of 
undo what you have already done in order to meet that deadline 
in order to get in place the very best long-term integrated 
automated system, would it not make at least some sense, would 
you concede, to maybe take another look at that deadline and 
make sure that we are doing the there thing, and that is a 
realistic deadline for the long term?
    Mr. McHale. I think we always have to look at how we 
proceed on the security role, but we have to balance what is 
the technology out there, what is available, how we can get it 
installed, what may be over the horizon that might be better. 
The technology out there today obviously can be improved, but 
the time line for doing that is quite prolonged, unfortunately, 
from our look at it. So we need to look at what we have today 
and see how we can get it in place as soon as we can and then 
continue to improve it.
    Mr. Barr. When we talk about it, you are not talking about 
a one size fits all system though, are you?
    Mr. McHale. Absolutely not. People always tell me that when 
you have seen one airport, you have seen one airport.
    Mr. Barr. Has that been communicated to Mr. DeCosta, that 
the whole process of determining what is the very best system 
would include consideration of an automated integrated system, 
such as he has proposed and I think other major airports have 
proposed also?
    Mr. McHale. We have had a lot of conversations with the 
airport directors as a community. Let me just turn to Mr. 
Williams for a moment and let him talk about the 
conversations----
    Mr. Barr. But as the policy director, I really would prefer 
for you to answer that question first and then let Mr. Williams 
expand on it.
    Mr. McHale. I have not had that conversation with Mr. 
DeCosta, I have had it with--I have had a number of 
conversations with----
    Mr. Barr. Are you communicating that to him today though at 
this hearing?
    Mr. McHale. Absolutely, sir.
    Mr. Barr. Is that good news, Mr. DeCosta?
    Mr. DeCosta. Yes.
    Mr. Barr. Thank you.
    Mr. Williams.
    Mr. Williams. I think you just about got your answer, but 
the discussions have, to a great degree, as Mr. McHale just 
said, centered on the issue of getting the best system that we 
can in place with the technology that is available today and 
meeting the congressionally mandated deadline, but also 
recognizing at the same time that there have been discussions, 
perhaps not at Mr. DeCosta and my level on a regular basis, but 
certainly with staff, that this is really just the beginning, 
that as technology improves, that as time and resources are 
available, there are probably better and more economical, from 
the standpoint of dollars and cents and personnel to increase 
it in the future.
    Mr. Burton. Let me followup. I guess you are like our 
Defense Department where we have new weapons systems coming on 
board that are going to make us less vulnerable to a military 
attack from Saddam Hussein or somebody and because of that, we 
appropriate money for new technologies and new weapons systems 
almost every year, because there are new things coming on line.
    Are you saying that in effect, we are going to have to be 
looking at new technologies to detect terrorist threats at 
airports and elsewhere ad infinitum, each year have to take 
another look at it and if there is new technology coming on 
that is superior, that Congress is going to have to look at 
that like a national defense budget increase?
    Mr. McHale. I think there is some truth in that. I think we 
certainly all hope that we will win this war on terrorism and 
decrease the threat, but I think we do need to look at--there 
are obviously new threats that come about that we need to 
respond to, but also I think what is important to realize is 
that the security technology that is available today was never 
really designed for the kind of threat that we face today. It 
was designed for a very different kind of era when we did not 
have to check every single bag.
    But this is what we have, this is the technology we have. 
We can look down the road, we have actually sought funding and 
Congress has provided some funding for research and development 
to continue to see how we can improve this. But we do have to 
deal with what we have available to us today. And given the 
nature of the threat, we have to deal with trying to get that 
equipment installed and also meeting the congressional mandate.
    Mr. Burton. Ms. Stefani, you raised a couple of questions--
more than a couple--that was kind of disturbing. You said that 
50 to 60 percent of the people that apply as screeners fail the 
aptitude test and you said that 20 to 25 percent after they 
make application do not show up?
    Ms. Stefani. Correct, that from the time the people do the 
initial application, which will do basic screening say for 
English, your proficiency, basic skills, basic information 
about the person, that they will apply on line usually and then 
when they get notified to come to an assessment center, they do 
not show up for the further tests. Then once at the assessment 
center, TSA is also again having people drop out that they fail 
various parts of that assessment center process.
    Mr. Burton. The percentage was what concerned me.
    Ms. Stefani. Yes, 50 to 60 percent.
    Mr. Burton. That fail the aptitude test.
    Ms. Stefani. It's not just the--including the aptitude 
test, it would be other things, such as the medical, drug 
testing, all different kinds of things, but in total what 
happens is--let me give you an example. If 10 people applied at 
TSA on line and TSA will call six people in for their 
assessment, and only four will show. And then during the 
process, basically you whittle it down and you end up with one 
person actually accepting the offer. And TSA has adapted its 
processes to try to adjust for what was happening. This is 
predominantly at your large cities that we are seeing this kind 
of dropout rate as the process progresses.
    Mr. Burton. So it is a combination of educational ability 
and physical problems and possible drug use.
    Ms. Stefani. Or criminal record, those kinds of things that 
would just, you know, automatically drop the person out.
    Mr. Burton. Is a large part of it the educational----
    Ms. Stefani. I would prefer--we can analyze the data and I 
can give you a lot more information.
    Mr. Burton. I would like to have that, because you know, 
that could be a real indictment of our education system if we 
are trying to hire all these screeners and that people do not 
have the educational skills to do that job. That kind of 
bothers me a little bit and we would also like to know about 
how the people who have criminal backgrounds who are applying 
break down and those that--do they give them a drug test? Is 
that right?
    Ms. Stefani. Correct, yes.
    Mr. Burton. So you give them a drug test, those that are 
failing the drug test.
    Ms. Stefani. Let me get a record up of what the history has 
been to date for TSA and provide it to you.
    Mr. Burton. OK, and then the question you raised about the 
equipment that we have on line right now only being utilized to 
the tune of about 60 percent. I think the Secretary indicated 
that was probably because the personnel they have doing it 
right now is not as well equipped to do the job as the ones 
that are being hired. Is that your assessment as well?
    Ms. Stefani. It is in part. What we have is a requirement 
that the airlines use it if their individual is a selectee and 
there is other factors--there are other factors that go into 
that, but that is going to be compared to 100 percent. We have 
said and testified numerous times--previously it was FAA and 
now it is TSA--they need to increase this random factor, they 
need to get more bags into the system and use those machines 
that we have out there.
    Mr. Burton. And Mr. McHale, is TSA planning to do that?
    Mr. McHale. We are, Mr. Chairman, particularly as we get in 
there to reconfigure these airports so that the machines are in 
the right places and we get our trained people in there, but I 
think there are certainly machines out there we can be using a 
lot more.
    Mr. Burton. When you talk about reconfiguring airports, you 
are talking about putting these machines in the lobbies in 
close proximity to the ticket counter?
    Mr. McHale. That is correct.
    Mr. Burton. How do you deal with the problem that Mr. 
DeCosta brought up awhile ago about long lines outside? This 
airport, I came in here today and I could not hardly get on the 
subway. I mean the amount of people is just phenomenal and I 
can imagine if you get to a holiday season, that you are going 
to have people standing in the parking lot trying to get in.
    Mr. McHale. It is a challenge, but we have been working a 
number of different pilot programs around the country where we 
have been doing 100 percent of the explosive detection system, 
running the bags through EDS systems, 100 percent of the bags 
through trace systems. And actually what we have found is that, 
particularly if those machines are located after the passenger 
checks in at the ticket counter, that typically the wait is 
metered, measured by the ticket counter wait. In other words, 
people tend to be waiting at the ticket counter to actually 
check in and then they proceed to the machine to check their 
bag. There usually is not--there is virtually no wait time at 
the actual machines once they have been through the checkpoint.
    For example, at Norfolk airport, we had an average of about 
between 16 and 18 minutes that the passenger was waiting to 
check in their bag. The wait time at the ETD machines, the 
trace machines, that the passengers then went to, was about 30 
seconds and the average processing time for a suitcase was a 
little over--about a minute and a quarter. It was very short, 
again we did the outside of the bag.
    Mr. Burton. Well, I hope you are correct, but I hope you 
will work with Mr. DeCosta because I am not sure he would agree 
with your time sequence there.
    Mr. McHale. Right.
    Mr. Burton. And the last thing I would like to ask, and I 
do not want you to answer this in public, and I probably should 
not have asked the question in public, but I asked Mr. DeCosta 
about the detection equipment now where they put that--when I 
go into Dulles or I go into Reagan National or here and you put 
your bags in the machine and they run that cloth over it to put 
it in the machine, when I asked him--from his testimony it 
sounded like there might be something in that that would not be 
detected. I would like for you to give us some information on 
that because that would be a problem if all those bags had to 
be opened in order to use that equipment for that purpose.
    Mr. McHale. We will be happy to arrange an appropriate 
briefing.
    Mr. Burton. OK, we would like that.
    Mr. Barr, do you have any other questions?
    Mr. Barr. Just a couple, Mr. Chairman.
    With regard to the deadlines, I am not quite sure how you 
come up with any degree of optimism that these could be met. 
You know, I look at the figures here from Ms. Stefani's 
testimony, with just over 3 months left, TSA needs to hire and 
train more than 8,000 passenger screeners a month, that would 
be just to meet the November 19th deadline. That is basically 
about 400 a day over the course of a 20-day work month and the 
number of machines to meet the--you know, to be tested and 
installed and up and workable to meet the December deadline is 
several dozen per day.
    I mean other than just sort of a rote commitment to saying 
we have to meet a deadline, we will meet a deadline, by golly 
we will meet a deadline, we have to meet a deadline, I mean 
how--I just do not see any realistic way that those deadlines 
can be met unless something gives in that process. And I am not 
quite sure what can give if you insist on saying you can meet 
the numeric deadlines other than quality.
    Mr. McHale. We have built a system--as Ms. Stefani said, we 
have actually tripled the rate at which we are hiring in the 
last month. We are ramping up to do this.
    Lockheed Martin is providing the training for the 
screeners, they are committed to being able to train up to 
7,500 per week if we have to reach that point. We expect 
actually to be at about between 300 and 4,000 per week within 
the next couple of weeks. We slowed this process down a little 
bit as we waited for the supplemental appropriation to come 
through. And Congress enacted it last week, the President 
signed it and that is now available to us. We are ramping up 
full speed now and we have tremendous confidence actually that 
we will meet the November 19th deadline.
    The end of the year deadline is--we actually have worked 
with the various manufacturers, we spent a lot of time going 
over their production lines. One of Boeing's jobs is to 
actually work on the processes that those manufacturers have in 
place and to ensure their capability of meeting the deadline 
and to look at additional production capabilities. And through 
orders that we have placed, we have caused the supply pipeline, 
all the various parts for these machines, to be fully flowing, 
it actually has been fully flowing now for several months, so 
the parts are actually--the long term lead parts have actually 
been on order and are coming in now to the manufacturing 
facilities.
    So we have been working on this program with a lot of 
detail at the plants, trying to address all these issues. We 
have known this was going to be tough from day one and through 
the work of the Deputy Secretary and a number of other people, 
we have worked very, very hard to put ourselves in a position 
to do it.
    The concern that we have, as I mentioned in my testimony, 
is that we did get a lower amount of funding than we requested. 
And we are now examining exactly how that is going to play out 
toward the end of the year deadline. We will meet the November 
19th deadline. We have to see whether the--exactly how the 
money plays out toward the end of the year deadline, how that 
will work out also with the 2003 appropriation, which of course 
will be coming before the Congress.
    Mr. Barr. The November 19th deadline is 104 days away. How 
many passenger screeners still need to be hired?
    Mr. McHale. We have about--the November 19th deadline? We 
have about 20,000 to hire, 22,000. We have hired about 10,000.
    Mr. Barr. So the figures, Ms. Stefani, of 33,000, that's 
13,000 less?
    Ms. Stefani. As Mr. McHale had spoken earlier, we are using 
slightly different days, so we were looking at the end of July 
that they had about 11,000 either on board or that they had 
accepted our offer. So I will agree with his 22,000 figure.
    Mr. Barr. So as of the end of July, there were 33,000 and 
as of now, 6 days later, there are 20,000?
    Ms. Stefani. No, excuse me, I must have confused that.
    The 33,000 is their goal that they must have on board by 
November 19th, and given that they have hired about 11,000 at 
this point, either hired on board or they have accepted offers, 
we are looking at approximately 22,000 more that must be hired 
in the remaining 3 months.
    Mr. Barr. I do not think my confusion is misplaced. I am 
not being critical but I am just trying to figure this out. 
Your testimony is that it is pretty clear that with just over 3 
months left, TSA needs to hire and train more than 8,000 
passenger screeners a month.
    Ms. Stefani. Right.
    Mr. Barr. This is to hire the estimated 33,000 passenger 
screeners needed. I read that to mean that that testimony 
indicates we need to hire 33,000 people before the November 
19th deadline.
    Mr. McHale. But we have already recruited 10,000. That is I 
think where the difference is. We have to bring on--we have 
recruited 10,000, we have to recruit 8,000 more a month over 
the next 3 months and that will bring us to--actually if we did 
that, it would bring us to 34,000.
    Mr. Barr. So are you saying there have already been how 
many thousand already hired?
    Mr. McHale. About 10,000. We have recruited 10,300. Not all 
of those are in training yet. We have about close to 6,000 of 
them are actually either trained or in training, the others are 
scheduled to start training. And we have to recruit another 
23,000 to meet the 33,000 goal, so it is about 8,000 a month, 
about 2,000 a week and that is what we are--we are actually 
spooling to do more than that because we want to achieve this 
goal a little ahead of the statutory deadline of November 19th.
    Mr. Barr. Now these are those that have actually passed 
through and passed the first phase of the assessment.
    Mr. McHale. The assessment, that is correct, they have 
either--they are either on our rolls being trained, or trained 
and deployed at airports, they have received job offers that 
they have accepted and they are being scheduled for training. 
So they are at a variety of different stages.
    Mr. Barr. And you have every confidence that without making 
any sacrifices in the quality of the standards that you will be 
able to meet that November 19th deadline?
    Mr. McHale. We are confident. The biggest problem, as Ms. 
Stefani has said, is in some of the bigger cities. We had 
originally hoped to be able to complete the recruitment process 
in about 3 weeks. We learned in our experience in Baltimore 
that we had to stretch that out and we stretched it out quite a 
bit. We started recruiting in all of the cities actually sooner 
than we had intended to, so that we are now trying to recruit 
everywhere in the country, even though some of the big city 
airports and some of the airports will not in fact roll out 
until the October-November timeframe, so we really want to give 
ourselves the maximum amount to accommodate that.
    Mr. Barr. With regard to hiring also, is there a concerted 
effort being made to recruit former military personnel?
    Mr. McHale. Yes, we--there is a veterans preference that is 
applied. Actually, as a practical matter, within the 
application process, we are actually trying to fill so many 
vacancies that we are able to offer positions to veterans who 
pass the assessment with no----
    Mr. Barr. I am sorry, to what?
    Mr. McHale. To offer positions to veterans who pass the 
assessment process. Even though they are veterans, they still 
have to go through the testing and the assessment process and 
pass through that process. If they pass that process, we are 
recruiting so many screeners that is not a problem in the sense 
of getting positions for them, there are more than enough 
positions.
    Mr. Barr. But is there an active effort being made, a 
conscious active effort made to recruit military, former 
military personnel? It would seem to me a tremendous pool of 
folks that already have some familiarity and training in the 
sorts of skills that you would be interested in.
    Mr. McHale. I believe there is a program that we have in 
place that works with the Armed Forces dealing with members who 
are leaving the services. I am just not certain what our 
outreach is to the veterans groups. I will look into that and 
get back to you.
    Mr. Barr. Could we get some additional information on that? 
I would be very curious to that.
    Are there European airports that have already instituted 
the type of in-line integrated and automated system that Mr. 
DeCosta believes is the appropriate one for an airport such as 
Hartsfield?
    Mr. McHale. No, not using the whole CTX--the EDS kind of 
equipment we are using. There are European airports that do 
integrated systems using what is called vivid x-ray technology 
and then following up with CAT scan technology. The vivid 
technology is not certified in the United States as meeting the 
standards for explosive detection.
    Mr. Barr. But is--I am sorry, what is not certified, the 
system that some of the European airports are using?
    Mr. McHale. That is correct. It does not meet our explosive 
detections standards. And again, there are issues about that I 
would be happy to brief you in a closed session.
    Mr. Barr. I would appreciate that.
    Mr. Chairman, did you have any additional questions?
    Mr. Burton. I think we have covered it pretty well. Let me 
suggest that we have some other questions that we--I do not 
want to be redundant, but we would like to submit them to you 
in writing.
    Mr. McHale. Absolutely.
    Mr. Burton. And if you could respond to us, we would really 
appreciate it.
    Do any of you have any final comments you would like to 
make before we conclude the hearing?
    Ms. Stefani. No, sir.
    Mr. McHale. No, sir.
    Mr. Burton. Mr. Barr, any further questions?
    Mr. Barr. Just one. If in fact the Senate adopts the same 
provisions that the House did and that is what emerges out of 
the conference committee with regard to the action the House 
took on the Homeland Security legislation, with regard to the 
deadlines, you will certainly make every effort to meet those 
deadlines and comply fully with the law as passed by the 
Congress and if that is signed by the President.
    Mr. McHale. Absolutely.
    Mr. Barr. Thank you.
    Mr. Burton. If there are no further questions, I want to 
thank you very, very much for being here. It has been very 
illuminating. There are still questions that need to be 
answered, but hopefully you will give us in writing some of the 
problems and solutions and I know that Mr. DeCosta is going to 
give us some suggestions which we will pass on to you and ask 
some questions about it in written form.
    If you would not mind sticking around just for a minute 
after we conclude, because I would like to talk to you and Mr. 
DeCosta before we go on our tour.
    Mr. McHale. Certainly.
    Mr. Burton. Thank you very much. We stand adjourned.
    [Whereupon, at 1:54 p.m., the committee was adjourned.]

                                   - 

</pre></body></html>
